■V

(

No.

IN THE
SUPREME COURT OF THE UNITED STATES

TERRY DARNELL ANDERSON - PETITIONER
vs.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS; and
ATTORNEY GENERAL, STATE OF FLORIDA - RESPONDENTS

PROOF OF SERVICE
I, Terry Darnell Anderson, do swear or declare that on this date, August 25, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and every other person required to be
served, by placing the documents in the hands of a prison official for mailing out first class
postage prepaid to :

Office of the Attorney General
1515 N. Flagler Drive
Suite 900
West Palm Beach, FL 33401-3432

Mark S. Inch, Secretary
c/o Office of General Counsel
Florida Department of Corrections
501 S. Calhoun Street
Tallahassee, FL 32399-2500

I declare under the penalty of perjury that the foregoing is true and correct.

Date

Terry D. Anderson, D/C #284760
Marion Correctional Institution
P.O. Box 158
Lowell, FL 32663-0158

